CERTIFICATE OF WORD COUNT
NO. 20-107
Cedar Point Nursery, et al.,
Petitioners,
v.
Victoria Hassid, et al.,
Respondents.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the OKLAHOMAET AL.AMICUS
6639 words, including the parts of the brief
that are required or exempted by Supreme Court Rule 33.1(d).
AT MERITS STAGE IN SUPPORT OF PETITIONER(S) contains

I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
January 7, 2021

SCP Tracking: Cleveland-313 NE Twenty-First Street-Cover Light Green

